<html>
<title> - [H.A.S.C. No. 114-25] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2016 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 114-25]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                   FISCAL YEAR 2016 NATIONAL DEFENSE

                      AUTHORIZATION BUDGET REQUEST

                      FOR MISSILE DEFENSE PROGRAMS

                               __________

                              HEARING HELD
                             MARCH 19, 2015


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               ____________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
94-227                    WASHINGTON : 2015                   
  
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="385f4857785b4d4b4c505d5448165b575516">[email&#160;protected]</a>  
                                     
                    
                 
                    
                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                           Eric Smith, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Gortney, ADM William E., USN, Commander, United States Northern 
  Command and North American Aerospace Defense Command...........     4
Mann, LTG David L., USA, Commander, Joint Functional Component 
  Command for Integrated Missile Defense.........................     6
McKeon, Brian P., Principal Deputy Under Secretary of Defense for 
  Policy, Department of Defense..................................     3
Syring, VADM James, USN, Director, Missile Defense Agency........     5

                                APPENDIX

Prepared Statements:

    Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
      Member, Subcommittee on Strategic Forces...................    33
    Gortney, ADM William E.......................................    45
    Mann, LTG David L............................................    85
    McKeon, Brian P..............................................    34
    Rogers, Hon. Mike............................................    31
    Syring, VADM James D.........................................    55

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Rogers...................................................   109

Questions Submitted by Members Post Hearing:

    Mr. Coffman..................................................   118
    Mr. Cooper...................................................   115
    Mr. Garamendi................................................   122
    Mr. Rogers...................................................   113
    Ms. Sanchez..................................................   116
  FISCAL YEAR 2016 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                        MISSILE DEFENSE PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Thursday, March 19, 2015.
    The subcommittee met, pursuant to call, at 9:03 a.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. I would like to call this hearing on the 
Subcommittee on Strategic Forces to order.
    We have a full morning ahead of us on an increasingly 
important subject of ballistic and missile defense. We will 
start with this open hearing and then we will adjourn and move 
to the HASC [House Armed Services Committee] SCIF [Sensitive 
Compartmented Information Facility] for a closed session with 
the witnesses to finish discussing things that are not 
appropriate to talk about in open hearing.
    We have an esteemed panel with us today to discuss the 
missile defense threat that the U.S. has to respond to. We have 
Mr. Brian McKeon, Principal Deputy Under Secretary of Defense 
for Policy, from the Department of Defense. We have Admiral 
Bill Gortney, U.S. Navy Commander, North American Aerospace 
Defense Command, U.S. Northern Command; Vice Admiral James 
Syring, U.S. Navy, Director of the Missile Defense Agency; and 
Lieutenant General David Mann, Commander, Joint Functional 
Component Command for Integrated Missile Defense.
    Given the packed morning, I am going to ask the witnesses 
to summarize their prepared statements in 3 minutes. Your full 
statements will be submitted to the record.
    I want to make a couple quick comments and then will yield 
to my good friend from Tennessee for any statement he wants to 
make.
    First, I want to thank all of you for taking the time to be 
here and putting the effort in to these prepared statements and 
this testimony. I know it takes time and you are all busy. And 
so I appreciate it. As we prepare to write the fiscal year 2016 
NDAA [National Defense Authorization Act], your testimony will 
help us to make some very important decisions about what 
programs we fund and what policies we set in place.
    Secondly, I want to state my support for many of the 
priorities in this year's budget submission I am pleased to 
see. For example, the roughly $700-million increase for this 
year in the Ground-based Midcourse Defense [GMD] system. We 
have only one ballistic missile defense system capable of 
defending the homeland. It is about time we properly fund it.
    Admiral Syring, you inherited a mess at GMD with that 
system when you took over MDA [Missile Defense Agency]. And I 
think I speak for all of my colleagues when I say that you have 
rebuilt trust in the system, and I can't overstate how grateful 
we are for your service. I hope that, when you leave here to go 
home tonight, you will pass on to your family a great big 
thanks from this committee and the country for your service.
    Admiral Gortney, Lieutenant General Mann, the same for you 
and your families. You have our respect, appreciation, and 
gratitude.
    Mr. McKeon, as always, we appreciate your civil service as 
well.
    I have concerns with the budget as well. While this year's 
budget is good, an improvement from recent years, I note it 
collapses in the out-years. As I plan, I am not sure I agree 
with the cruise and ballistic missile threat that the United 
States, our deployed forces, and our allies will get better in 
the next 5 years.
    Likewise, I was deeply troubled by the November 2014 memo 
to the Secretary of Defense, signed by the Chief of Staff of 
the Army and the Chief of Naval Operations, concerning our 
missile defense capabilities.
    This memo represents the kinds of things many of us have 
been worried about because of sequestration. Core missions, 
like missile defense, are difficult to sustain. Our Aegis 
ships, the THAAD [Terminal High Altitude Area Defense] 
batteries and Patriot batteries are expensive commitments to 
our regional security. We all know that.
    I agree with the former Secretary Hagel that our current 
BMD [ballistic missile defense] policy is sound. To the 
services, I say missile defense is a core mission. It is not a 
nice-to-have mission. It is a must-have mission. But we must 
get you budget relief so that this core mission and all of your 
other core missions are executable.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 31.]
    Mr. Rogers. And with that, I now yield to my friend and 
colleague from Tennessee, Mr. Cooper, for any opening statement 
that he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    In view of the tightness of the schedule, I will just 
submit my statement for the record.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 33.]
    Mr. Rogers. All right. I appreciate that.
    We will start, then, with Mr. McKeon. You are recognized 
for 3 minutes to summarize your opening statement.

STATEMENT OF BRIAN P. McKEON, PRINCIPAL DEPUTY UNDER SECRETARY 
          OF DEFENSE FOR POLICY, DEPARTMENT OF DEFENSE

    Mr. McKeon. Thank you very much, Mr. Chairman, Ranking 
Member Cooper, and members of this subcommittee. Thank you for 
this opportunity to be here today to discuss the fiscal 2016 
budget request for missile defense. I am grateful for your 
attention to and support of this critical mission of defending 
our homeland, our partners and allies, and deployed forces from 
a growing ballistic missile threat.
    The President's budget requests $9.6 billion in fiscal year 
2016, of which $8.1 billion is for the Missile Defense Agency 
to develop, deploy missile defense capabilities to protect the 
homeland and strengthen our regional missile defenses.
    Sequestration levels would be significantly lower and, as 
Secretary Carter has said, would make the Nation less secure. 
Even without sequestration, however, in these austere times, 
there is still not enough money to fund every program that we 
might wish to have and we are required to prioritize 
investments accordingly.
    As members of this subcommittee, you are well aware of the 
ballistic missile threats and trends, some of which is spelled 
out in detail in our opening statements. I will focus on a few 
key policy priorities for addressing these threats: defending 
the United States against limited long-range ballistic missile 
attacks, strengthening defense against regional missile 
threats, fostering defense cooperation with partners, and 
examining how to advance missile defense technology base in a 
cost-effective manner.
    The U.S. homeland is currently protected against potential 
ICBM [intercontinental ballistic missile] attacks from states 
like North Korea and Iran. To ensure that we stay ahead of the 
threat, we are continuing to strengthen our homeland defense 
posture and invest in technologies to better enable us to 
address emerging threats in the next decade. This requires 
continued improvement to the Ground-based Midcourse Defense 
system, including enhanced performance of the ground-based 
interceptors [GBIs] and deployment of new sensors.
    We remain on track to deploy 14 additional interceptors in 
Alaska by the end of 2017. These interceptors, along with the 
30 that are currently deployed, will provide protection against 
both North Korea and Iranian ICBM threats as they emerge and 
evolve.
    We have also deployed a second forward-based missile 
defense radar to Japan, which is operating today thanks to the 
hard work of MDA and the Japanese Government. This radar 
strengthens both our homeland and regional defenses.
    This year's budget also reflects the DOD's [Department of 
Defense's] commitment to modernizing the GMD system. It will 
move us toward a more reliable and effective defense to United 
States. It includes funding for the development of a new radar 
that, when deployed in Alaska, will provide persistent sensor 
coverage and improve discrimination capabilities against North 
Korea. It also continues funding for the redesign of the kill 
vehicle for the GBI.
    As directed by the Congress, the MDA is also conducting 
environmental impact studies at four sites in the eastern part 
of the United States that could host an additional GBI missile 
field. These will be completed next year.
    The cost of building an additional missile defense site in 
the United States is very high. And given that the ICBM threat 
from Iran has not yet emerged and the need to fix the current 
GBI kill vehicles, the highest priorities for the protection of 
the homeland are improving reliability and effectiveness of the 
GBI and improving the GMD sensor architecture.
    This current GMD system provides coverage of the entire 
United States from North Korean and potential Iranian ICBMs. 
And no decision has yet been made to deploy an additional 
missile field in the United States.
    I will conclude here, Mr. Chairman, because I see the red 
light is on. You have the rest of my statement.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 34.]
    Mr. Rogers. I thank you.
    Admiral Gortney.

  STATEMENT OF ADM WILLIAM E. GORTNEY, USN, COMMANDER, UNITED 
 STATES NORTHERN COMMAND AND NORTH AMERICAN AEROSPACE DEFENSE 
                            COMMAND

    Admiral Gortney. Chairman Rogers, Ranking Member Cooper, 
and distinguished members, thanks for allowing us to come here 
today as we talk about this critical mission set.
    As I look at threats to the homeland, I look at threats 
from the most likely to the most dangerous. And right there in 
the middle of this is this critical mission set defending the 
homeland from ballistic missile defense, particularly the 
threats from North Korea and Iran.
    But, as I look at the threats, the most likely and the most 
dangerous that is getting ready to confront us, I think it is 
sequestration and the impacts on my ability across all of my 
mission sets, but particularly in this particular case, to 
defend the homeland.
    Sequestration, when it comes for the services, is the 
quickest way to hollow a force out. They have to take it out of 
readiness, and they are going to delay capability.
    And when I look at the effects of sequestration on this 
mission set, my good friend here, Jim Syring, he doesn't have a 
readiness account that he can go to. He has to go into the New 
START [Strategic Arms Reduction Treaty] program, which is going 
to delay the long-range discriminating radar, the improved kill 
vehicle that we need to outpace this proliferating threat.
    And so the specifics of those impacts I will leave to Jim 
here. But we look forward to your questions. And we really 
appreciate your support.
    [The prepared statement of Admiral Gortney can be found in 
the Appendix on page 45.]
    Mr. Rogers. Thank you, Admiral.
    Admiral Syring, you are recognized.

   STATEMENT OF VADM JAMES D. SYRING, USN, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    Admiral Syring. Mr. Chairman, Ranking Member Cooper, and 
distinguished members of this subcommittee, thank you for the 
opportunity to testify in front of you today.
    Our budget request for fiscal year 2016 maintains the 
commitment to operate and sustain homeland defenses, including 
us remaining on track for 44 GBIs by 2017. We also request 
support for test requirements and continuing to enhance the 
Stockpile Reliability Program component agent testing to better 
maintain and understand the health of the deployed system.
    Testing plan for 2016 includes a non-intercept flight test 
to evaluate the alternate divert thrusters and support 
algorithm development for the important discrimination 
improvements for homeland defense.
    As was mentioned, we continue the development of the 
redesigned kill vehicle for improved reliability, availability, 
performance, and produceability. The first flight test of this 
will be in 2018. The first intercept test will be in 2019. If 
that goes according to plan, the initial deployment will begin 
in 2020.
    We started acquisition planning and pre-construction 
activity for the long-range discrimination radar. We anticipate 
contract award for that by the end of this fiscal year.
    Our 2016 budget request supports the deployment of Standard 
Missile-3 Block IBs and, beginning in 2018, the SM3-IIAs on 
ships and Aegis Ashore sites in Romania and Poland.
    We plan to procure 209 SM3-IBs by the end of 2016 and then 
will request multiyear procurement authorization. We also plan 
to deliver 48 additional THAAD interceptors to the Army for 155 
total delivered by 2016.
    And, finally, our advanced technology and development 
efforts that really ramp up this year will continue our 
discrimination sensor weapons technology, common kill vehicle, 
which includes early concept exploration of multi-object kill 
vehicles and technology maturation initiatives.
    These investments will enable us to deploy a future BMDS 
[Ballistic Missile Defense System] architecture more capable of 
discriminating and killing reentry vehicles with high degree of 
confidence. Our low-power directed energy resources research is 
focused on providing the forward-tracking capability.
    Mr. Chairman, MDA will continue to aggressively pursue cost 
reduction measures through competition, partnering, and 
cooperation as we deliver the best missile defense capabilities 
to protect our Nation, our deployed forces, and friends and 
allies at the lowest possible cost to the American taxpayer.
    Thank you. And I look forward to the questions.
    [The prepared statement of Admiral Syring can be found in 
the Appendix on page 55.]
    Mr. Rogers. I thank you.
    Lieutenant General Mann, you are recognized.

     STATEMENT OF LTG DAVID L. MANN, USA, COMMANDER, JOINT 
  FUNCTIONAL COMPONENT COMMAND FOR INTEGRATED MISSILE DEFENSE

    General Mann. Chairman Rogers, Ranking Member Cooper, and 
other members of the subcommittee, thank you for your continued 
support of our soldiers, civilians, and their families.
    This is my second appearance before this subcommittee and 
it is indeed an honor for me to testify on the importance of 
missile defense to our Nation and the need to maintain these 
capabilities in the face of a maturing threat and declining 
budgets.
    Today I want to briefly summarize some of the missions of 
the organizations that I support. First, Space Missile Defense 
Command, SMDC, Army Forces Strategic Command, ARSTRAT, serves 
as the missile defense force provider in support of our 
combatant commanders out there.
    Secondly, the Joint Functional Component Command for 
Integrated Missile Defense [JFCC-IMD] serves and supports 
USSTRATCOM [U.S. Strategic Command] on integrating and 
synchronizing our global missile defense operations.
    Turning to the first organization that I mentioned, SMDC/
ARSTRAT, we have three core tasks. We provide trained and ready 
global missile defenders. We build the future force in terms of 
both capabilities and force structure. And we also evaluate 
critical technologies to help us stay ahead of the threat. 
JFCC-IMD, on the other hand, supports operational-level 
planning and global missile defense operations on behalf of 
USSTRATCOM.
    We execute five critical tasks in support of these 
responsibilities. We synchronize operational-level planning. We 
support ongoing operations. We integrate training and exercises 
and test activities globally. And we also provide 
recommendations on the allocation of missile defense resources. 
And, finally, we also advocate on future capabilities.
    Today the missile defense threat continues to grow both in 
terms of sophistication and the number of systems. We, as a 
nation, cannot afford a decrease in our readiness. That said, 
we are extremely concerned about sequestration that will 
directly impact our readiness and our ability to evaluate and 
test new technologies in order to stay ahead of the threat.
    This committee's continued support of missile defense 
operations and the men and women who develop and employ these 
systems is essential. Again, I appreciate the opportunity to 
discuss our Nation's missile defense capabilities and look 
forward to your questions.
    Thank you.
    [The prepared statement of General Mann can be found in the 
Appendix on page 85.]
    Mr. Rogers. I thank you.
    And I will recognize myself first for a series of 
questions. I want the focus of this hearing to be mainly on the 
implications that these spending caps on defense will create if 
we go forward with them. I think that the Budget Control Act 
[BCA] is one of the most irresponsible things the United States 
Congress has done in recent memory, specifically, the caps that 
it has hoisted on the Defense Department.
    I would remind everybody that the year before the BCA was 
adopted, this committee had voluntarily cut over $500 billion 
out of the Defense Department just to show our recognition of 
the financial burden that this country was suffering. And then 
we had no idea that there would be another $600 billion coming 
behind it the very next year. Those two things together is what 
really has created this mess that we are in.
    But while the members of this committee, the full HASC as 
well as the subcommittee, I think, all are fully aware of the 
implications of these continued irresponsible cuts, I think it 
is important for you all, as the service members, to help 
describe for the members who are on this committee who will be 
reading about this hearing exactly what these cuts mean to your 
ability to continue to defend this country in an effective way.
    So, with that, General Mann, I will start with you. Tell us 
what you think it means to you not just in this fiscal year 
2016 budget--because the truth is you all have done a pretty 
good job up until now dealing with these cuts and keeping a 
straight face. It is time to start telling us what it means. So 
I will start with you.
    General Mann. Thank you, Chairman.
    I think we have to recognize that the threat is not 
standing still. We see a threat that, like I said in my 
statement, is growing both in terms of the sophistication of 
their weapon systems as well as the numbers.
    So, in that context, the concern that we have is that a lot 
of our programs in terms of the modernization of the Patriot 
force, the improvements to the radar, the missile enhancement 
segment that we are trying to develop to give us that--to 
bridge that gap between the Patriot and the THAAD force, the 
software upgrades that are required--those programs, due to 
sequestration, could be impacted. They could be delayed. And, 
again, the threat is not standing still.
    Also, in terms of homeland defense----
    Mr. Rogers. Before you go further, that 12,000-foot 
altitude gap between the Patriot and the THAAD, what 
vulnerability does that create for us? What threat do we have 
to worry about penetrating that gap?
    General Mann. In terms of looking at the CENTCOM [U.S. 
Central Command] area of operations, there are early-release 
munitions that could be employed within that range that could 
impact our operations as far as putting munitions on airfields, 
ports of entry. So that is a critical gap, that we need that 
missile enhancement to cover that gap that I talked about.
    Mr. Rogers. Okay.
    General Mann. So, again, in terms of the regional support, 
the modernization efforts. Also, we have a lot of efforts 
underway to get after the cruise missile threat that I am sure 
will be discussed later on today.
    The indirect fire protection capability utilizing the AIM-
9X missile will help us address that threat. Patriot does have 
a capability against cruise missiles, but we need to enhance 
that capability. So those efforts.
    And, most importantly, the Army's number one air missile 
defense priority is the network, the air missile defense battle 
command network that basically takes all of the assets that we 
have out there and componentizes it.
    Instead of having big units that have to deploy downrange 
being able to take those units and break them up, it is a 
little bit more of an affordable way of getting after the 
business of missile defense.
    And, also, making sure that we get away from stovepipe 
command-and-control architectures out there and have one single 
integrated architecture that really addresses the tactical-
level and the operational-level systems that feeds into C2BMC 
[command, control, battle management, and communications].
    So those modernization efforts will be impacted and delayed 
and, again, all in the context the fact that the threat is not 
stopping. Improvements to our homeland defense capabilities, 
whether it is the GBI reliability that Admiral Syring and his 
folks are getting after.
    Those capabilities as well as long-range discrimination 
that we need to make sure that we are as effective and as 
efficient as possible with the limited number of resources, 
because we will never be able to have enough missiles to 
address the number of threat vehicles that are out there.
    Mr. Rogers. Admiral Syring.
    Admiral Syring. Sir, if I can, let me start back in the 
first round of sequestration back in 2013, when those cuts came 
down midyear when we were under a continuing resolution.
    Those cuts had an immediate impact in what we are doing. I 
have many, many contracts across the agency that require annual 
funding. If I didn't want to break those contracts, I 
immediately had to go into areas that I could affect, and I 
went to testing and I deleted several tests or delayed several 
tests. The GAO [Government Accountability Office] has noted 
this. And I would say that is a direct result of the 
sequestration cuts that came down.
    In addition, I took further risk on the SM-3 IIA 
development program and essentially removed all of the 
development margin in that very important program that must 
deliver that missile in 2018 to support the Poland deployment. 
Critical effort.
    We are now out of margin. So we are now into the projection 
of what next in terms of the hypothetical--not even 
hypothetical--the real possibility of sequestration cuts 
flowing down to the Missile Defense Agency.
    There was a number mentioned yesterday in the 
Appropriations Committee's hearing of 18 percent, which would 
mean that I would take a reduction from $8.1 billion to $6.7 
billion, over a $1.4 billion reduction. Again, if I maintain my 
commitment to 44 GBIs by 2017, which is our top priority, and 
the EPAA [European Phased Adaptive Approach] commitments that 
we have made in Europe, there is not many places to go.
    So we would immediately go to the efforts that were started 
last year, which are the redesigned kill vehicle and the long-
range discriminator radar, approximately $500 million between 
those efforts. That would immediately put those on hold or 
delay those.
    And, to me, now you are starting to jeopardize our future 
capability in terms of what we are able to say to the American 
people and our ability to defend the homeland. With the 
development and testing that I see going on with North Korea 
very specifically and the pace and the progress that they are 
making, I am in serious jeopardy, without those improvements, 
of going to the NORTHCOM [U.S. Northern Command] commander and 
advising him that the system is overmatched. That would be the 
path that we are on if we don't do these improvements between 
now and 2020. The system will be overmatched.
    Mr. Rogers. Admiral Gortney.
    Admiral Gortney. As I said before, the biggest impact is 
the delay of capability for our ability to outpace the threats. 
And Admiral Syring just adequately--very well explained those 
particular impacts. So let me take another look. Let me mention 
this from a different way.
    Defending the homeland is an away game. That is where our 
primary focus is, to delay the away game. The way sequestration 
is going to impact the services, they are going to have to go 
under their readiness accounts in order to do that, which is 
the quickest path to a hollow force.
    That is going to drive these low-density, high-demand 
assets, be it Patriot, THAAD, or Aegis BMD ships. Their 
operational tempo is going to go up, only stressing a very, 
very stressed force as it is.
    In my last job as a force provider for the Navy, those 
carriers and air wings, Amphibious Ready Groups and Marine 
Expeditionary Units and ballistic missile defense ships are the 
highest op tempo that we have. And those are the forces that 
are going to feel that impact. That is going to directly affect 
how well we defend ourselves in the away game.
    Every commander's first responsibility is to protect the 
people that work for them. And having lived with my family 
underneath the Iranian threat in Bahrain for a couple years, 
you know, I am very, very concerned of that ability to outpace 
the threat in the Pacific and in the Gulf and in the 
Mediterranean in order to do that critical mission. That is how 
sequestration will affect us.
    Mr. McKeon. Mr. Chairman, I don't have a great deal to add 
to what my colleagues said.
    If you look at the missile defense budget--or at least the 
MDA budget, $6.2 billion out of the $8.1 billion is in RDT&E 
[research, development, testing, and evaluation]. So looking 
for the investments we need to make to stay with the threats 
and advance our capabilities, that is where the heart of his 
budget is.
    And we probably can't cut the O&M [operations and 
maintenance] parts of the Aegis and the other systems. So he 
would take it out of the R&D [research and development] side. 
And, as he explained, that would be pretty devastating to our 
systems.
    Mr. Rogers. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    I certainly second your strong objection to sequestration 
for the defense budget. I just hope that we can at least reach 
the President's budget levels and do that honestly.
    I regret the failure of any committee, but it was a little 
bit heartening last night that the Budget Committee failed to 
get a budget. And I think they are starting to listen to the 
members of this committee and others saying that you need to 
plug that defense hole and you need to plug it with real 
dollars, not borrowed dollars from China.
    It was interesting yesterday that Senate Republicans 
objected to the way we were trying to plug the hole. And I 
don't know what their method is, but we have got to do this 
honestly and not just rely on the Chinese to fund our needs.
    Apart from these urgent sequestration issues, I thought we 
should spend a moment on that memo from Greenert and Odierno to 
the Secretary of Defense back from November 5, 2014, because it 
uses nice bureaucratic language.
    But I think the message of this memo is pretty important 
and pretty daunting. The first sentence says, ``The growing 
challenges associated with ballistic missile defense are 
increasingly capable and continue to outpace our active defense 
systems.''
    Admiral Syring just said that we will be overmatched 2020 
unless we do things right. This kind of implies we are being 
overmatched. And harsher language would say we are kind of 
losing right now.
    Later in the memo it says, ``Our present acquisition-based 
strategy is unsustainable in the current fiscal environment.'' 
``Unsustainable'' is a polite word for saying that we don't 
have enough money, this isn't fixable. And I don't know whether 
they meant to not only fix sequestration, but go beyond that.
    But it also has a little bit of a tone here at least vis-a-
vis other military necessities that they feel MDA is being 
something of a resource hog because you all are getting money 
that they could use for readiness or other needs that are not 
being met.
    I don't want to read too much into this. But to have 
Greenert and Odierno write something like this is pretty 
astonishing because it is harsher criticism than the committee 
has ever levied. You throw this in with a recent GAO report 
talking about smaller issues and we have a lot of work to do.
    I worry, for example, that--you know, lots of people talk 
and we are underway in looking at four east coast sites. But 
will we have the money, the $3 or $4 billion, to do those? 
Because we have to admit to ourselves that is a lower priority 
for MDA than discrimination of targets and redesigning the kill 
vehicle and things like that.
    So, being straightforward here, we have got to not only fix 
sequestration, we have got to have a strategy that seems to 
work better against ballistic missile threats. And Greenert and 
Odierno talk about things like ``left of launch'' and non-
kinetic means of defense, lots of things that are strategic 
decisions that we need to make sure we are on top of, because 
this same old, same old won't necessarily fix the problem.
    So we trust you gentlemen. We hope it is working. But this 
is kind of a vote of no confidence here from two of the most 
important people in the military.
    So what do we do to best fix their concerns?
    Admiral Gortney. Sir, I was in the Navy-Army staff talks 
that generated that particular lecture. And the fundamental 
issue from the services comes down to: Are we spending our 
money correctly? And what is the impact for the money that we 
are spending?
    The primary concerns that they have is that we are relying 
at this particular point, whether it be ballistic missile 
defense for the homeland or theater ballistic missile defense, 
is that we are really emphasizing being a catcher and shooting 
a rocket down with a rocket, which is a very expensive 
proposition and it drives low-density, high-demand assets, 
their operational tempo, up.
    So when they talk about unsustainable, it is not only in 
the terms of cost, but it is in terms of the operational tempo 
of the forces that are doing it. And so what we really need 
is--what they are asking for is a broader range, that we have a 
deterrence policy that helps keeps missiles on the rail for 
deterrence, we have kinetic and non-kinetic options to keep 
missiles on the rails, and then we start attriting the threat, 
once they get airborne, starting in the boost phase and 
throughout that particular flight, so that we start knocking 
down missiles in a more effective and a cost-effective manner.
    We are on the wrong side of the cost curve and we are on 
the wrong side of the operational tempo curve. That is what 
they are trying to drive for.
    That is why the impacts of sequestration are so critical, 
because Admiral Syring has laid in technological RDT&E money to 
go after other methods other than just the midcourse approach 
that will allow us to get on that correct side of the cost 
curve.
    And, with sequestration, those will be impacted, which is 
counter to what the Chief Staff of the Air Force and the Chief 
of Naval Operations [CNO] have asked for, to get on the right 
side of the cost curve and, also, free up the operational tempo 
of the forces that are executing this critical mission.
    Mr. Cooper. Chief of Staff of the Army, not the Air Force.
    Admiral Gortney. Correct.
    General Mann. Sir, if I could just add to that, I think 
that the Joint Staff and OSD [Office of the Secretary of 
Defense] is looking at a more holistic way of looking at global 
force management. Instead of just looking at platforms, whether 
it is BMD ships or THAAD or Patriot, how can we better address 
the COCOMs' [combatant commanders'] requirements in terms of 
capability?
    So that is where you get left of launch. That is where we 
need improvements in ISR--intelligence, surveillance, 
reconnaissance--and being able to do a better job of seeing 
intent and taking actions before a launch and, also, making use 
of other non-kinetic, whether it is space control assets, 
whether it is maybe directed energy down the road, things that 
are more cost-affordable in terms of getting after this 
capability.
    So what we are doing is we are really raising the level of 
sophistication as to how we get after our global force 
management.
    Admiral Syring. Mr. Cooper, I would just add two items that 
have been touched on as well.
    One is force structure with the Navy in terms of the 
combatant commanders asking the CNO to provide more and more 
ships, more and more ships, for the ship stations with EPAA, 
more and more and more, and I see that escalating over the next 
several years.
    CNO and the Navy have other things for those ships to do in 
terms of sailing with strike groups and protecting the strike 
groups. I think you see the CNO saying that I don't have the 
assets in the future to cover all of the requirements from the 
combatant commanders around the world.
    I am just asking for a new strategy in terms of how do we 
do that? How do we integrate left and right of launch? How do 
we move this into advanced technology and get on the right side 
of the cost curve, in his words?
    Mr. Cooper. Thank you, Mr. Chairman.
    Mr. McKeon.
    Mr. McKeon. The only thing I add, Mr. Cooper, is underlying 
this memo from the two officers is the tension that we see, and 
sequestration is also a factor in this, both the one we have 
already experienced and the one that is looming over us.
    Even though we don't have over 100,000 forces forward-
deployed right now, there is still stress on some of the force. 
The COCOMs still have requirements that they need to meet near-
term threats and, balanced against that, the Secretary, the 
Chairman, the service chiefs, they are all trying to bring the 
forces back to full-spectrum readiness to get the forces 
healthy.
    So it is a tension that is ongoing all the time, the demand 
for forces from the COCOMs against needing to enhance 
readiness, and I think that is what underlies some of the 
appeal in that memo.
    Mr. Cooper. Thank you, Mr. Chairman.
    Mr. Rogers. Thank you.
    The chair now recognizes the gentleman from Arizona, Mr. 
Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank all of you for your gallant service to the country.
    Admiral Syring, included in the fiscal year 2016 budget 
request from the President, there was multiyear procurement 
authority for the SM-3 IB in that.
    Can you speak to that for the record as to the importance 
of the authorization?
    Admiral Syring. Yes, sir. Given design stability of that 
missile and the successes that we have had with intercept and 
where the predicted reliability is of that missile, we are 
pushing a multiyear certification authority through the 
Department to send over here to request multiyear procurement 
authorization.
    We estimated there will be a 14 percent savings over annual 
procurements, and we view that as a good deal for the American 
taxpayer and the right thing to do.
    Mr. Franks. Yes, sir.
    Your FYDP [Future Years Defense Program] for fiscal year 
2016 shows approximately $191 million for an extended-range 
staff modernization program. I think Lieutenant General Mann 
was alluding to that.
    Why is such capability needed based on your reality, your 
budget profile? Is it affordable, in your mind? And are there 
some options that would help you to afford this?
    Admiral Syring. Yes, sir. The money requested is not for a 
full development program. It is to explore the concept. I would 
like to defer to the classified session on the threat in terms 
of what that helps us with and helps us counter. And I can go 
into that.
    But suffice it to say, it is necessary. The threat dictates 
it, in terms of what we are seeing with development, to move 
that interceptor into a higher-velocity design to help us 
counter the future threat.
    Mr. Franks. Yes, sir.
    Mr. McKeon, I might ask you, since looking at international 
cooperative development or financing would really fall under 
your purview of the policy of OSD, what would you express about 
such an opportunity?
    Mr. McKeon. Well, Mr. Franks, as you know, our regional 
missile defense strategy is focused in critical respects on 
partnerships. And in the example of the Japanese, we are doing 
a co-development on one of the SM blocks.
    So, we are always looking for partners. In a broad sense, 
it would depend, in particular, what the kind of arrangement we 
could have with them, what the technology releasability would 
be.
    So there would be a lot of questions to answer, but it is 
something we are always focused on.
    Mr. Franks. Well, Admiral Syring, I may come back to you.
    Last year, when you came before the committee, you said 
that, if there was one thing you needed more of, it was 
increased discrimination capability.
    Can you talk about and kind of express how far you have 
come and where we are headed in fiscal year 2016?
    Admiral Syring. Yes, sir. We have a very in-depth plan that 
has laid out near-, mid- and far-term objectives that are 
funded in this year's budget. Those deliveries will start next 
year to the components of the BMDS.
    A critical component that we are requesting this year is 
the long-range discriminating radar in Alaska, which helps us 
stay ahead of the threat and makes sure that we are not 
overmatched in terms of threat complexity that we see 
developing in North Korea. Critical to that problem.
    Mr. Franks. Yes, sir.
    Well, you know, we have had each of the service chiefs and 
Secretaries as well as the SECDEF [Secretary of Defense] and 
Chairman before this committee this week alone.
    And one of the recurring themes has been what support does 
each of the services provide to the warfighter, the combatant 
commanders. I suppose it is a rather obvious question, but it 
would be, I think, worth hearing your more elaborate expression 
of it.
    From a missile defense perspective, what is the main thrust 
of your support that you provide to the warfighter? And I will 
start with you, Admiral Syring. And we will see what time we 
have after that.
    Admiral Syring. Yes, sir. Everybody is very familiar with 
the homeland defense and the operation of that by the Alaska 
National Guard in terms of protecting our homeland.
    The regional defense capability that we fielded in Patriot 
and THAAD and Aegis go around the world. Thirty-three BMD ships 
today helping with defense of Japan, helping us when we need 
them, actually, in defense of the homeland, helping us in the 
Mediterranean in terms of limited defense of European countries 
and in the Middle East, in the Gulf there, in terms of the 
stations that we keep. Those are just the Aegis ships.
    I will let General Mann talk about the Patriot deployments 
on where we are, but we have gone around the world with that 
capability as well. We continue to expand Aegis, as you know, 
Mr. Franks, not just at sea, but what it will provide us in 
Romania and Poland.
    As you know, there has been billions of dollars spent on 
the development of that regional capability with Patriot, 
THAAD, and Aegis that is now deployed worldwide in all theaters 
of operation.
    Mr. Franks. Thank you, Mr. Chairman.
    General Mann, did----
    Mr. Rogers. Go ahead.
    General Mann. Sir, Admiral Syring kind of mentioned it.
    I mean, number one, we support homeland defense. The 49th 
Battalion that is up there at Fort Greely, Alaska, and also 
down in Vandenberg provide that 24/7 capability against the 
limited threat emanating from Iran and North Korea. National 
Guard unit full-time. And I am enormously proud of what they do 
day in and day out.
    As far as the Patriots, right now, 60 percent of our 
Patriot force is either forward-station and forward-deployed. 
In addition to the capabilities that they provide, they also 
serve a very, very important role in terms of theater 
engagement with our partners throughout the region and 
reassuring our allies out there. And so that cannot be 
overstated.
    Mr. Franks. Thank you gentlemen.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank you.
    The chair now recognizes the gentleman from Colorado, Mr. 
Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    I appreciate the service that you all provide to our 
country.
    And, Admiral Gortney, I hope you brought some of the great 
weather they have been having in Colorado Springs to the east 
coast here.
    Mr. McKeon. Sir, I was there on Tuesday and it was raining.
    Mr. Lamborn. The forecast I see for next week is in the 60s 
and sunshine.
    Admiral Gortney, we touched on the long-range 
discriminating radar. But could you amplify the importance of 
that for the warfighter.
    Admiral Gortney. Yes, sir. You know, sensors are key. If 
you can't see, you can't kill. And to the improvement for the 
long-range discriminating radar, our ability to better detect 
and discriminate where the threat is, and the types, will 
enhance the effectiveness, the lethality, of our kill vehicles, 
but we also need to enhance the lethality of our kill vehicles 
and we need to sustain them.
    So the priorities that Admiral Syring has laid out, the 
three priorities of the better sensors, enhanced kill vehicles, 
and the sustainment and maintaining of that which we own, have 
to be done concurrently. It is not an either-or. All of them 
have to be done concurrently.
    Mr. Lamborn. Thank you.
    Admiral Syring, on the issue of space, can you discuss your 
current and future space architecture needs and plans.
    Admiral Syring. Yes, sir. We are actively pursuing a space-
based experiment which you are familiar with, and we can talk 
more about that in the classified session. That is very 
encouraging to us in terms of what it might provide with 
technology demonstration on hit and kill assessment, which is 
vitally important.
    Longer term, we and the Air Force and other partners need 
to think through what is the partnership opportunities for a 
space-based application in terms of the real persistence and 
the real discrimination capability that will come from space.
    You have heard me say, Mr. Lamborn, you can't just do it 
all with radars. We have got to get up to space and have that 
constellation presence over the threat from the west and the 
east, and you are going to see more thinking from us and our 
partners on that in future budgets.
    Mr. Lamborn. Well, that is very encouraging.
    But, also, let me ask you about something we have talked 
about in my office privately: directed energy. That is 
something--there is a bipartisan agreement that that has 
tremendous potential for the future and is and should be part 
of our asymmetrical advantage as a country over people on the 
other side.
    So what are you doing to apply the benefits of directed 
energy?
    Admiral Syring. Sure. There is two applications, obviously, 
tracking in terms of what that might provide from a space-based 
solution with laser capability and the maturation of that 
technology. The other very important part of that technology 
maturation effort is what it may mean for us scaling up to a 
boost-phase intercept capability.
    Two very promising development efforts ongoing with MIT 
[Massachusetts Institute of Technology] and Livermore [Lawrence 
Livermore National Labratory]. Both have advantages and 
disadvantages. We have gone out to industry and asked their 
ideas in terms of how can we get technology to a demonstration 
sooner than later.
    And I think you will see us pursue that path for really a 
down-select in the 2018 time period to single up on one 
technology and one solution for tracking--and I will just leave 
it at tracking in this forum--and boost-phase intercept.
    Mr. Lamborn. Thank you.
    And, lastly, Admiral Gortney, I will finish up by asking 
you about the cruise missile threat. I know on all these things 
we can get into more of the weeds in the classified session.
    But, in general terms, what is the threat that we are 
looking at against the homeland today?
    Admiral Gortney. The only nation that has an effective 
cruise missile capability is Russia, from either their long-
range aviation, their Bear H's [bombers], from the cruise 
missile submarines, or they have an ability to put it on 
surface ships, both combatants and noncombatants.
    I haven't been in the cruise missile business defending 
against them since I was a JG [lieutenant junior grade]. And I 
shot over 1,300 of them. I know that they are very effective 
and they are very difficult to shoot down.
    Our current strategy is very focused on shooting the 
arrows. And we need to expand our strategy and our capabilities 
to be able to get the archer, hold the archer at risk.
    And there is an approach, rules of engagement, that allows 
us to take the archer out and then be able to deal with the 
leakers that come through here. And that is what we are trying 
to get the program.
    Mr. Lamborn. Well, thank you again for the work that you 
do.
    Mr. Chairman, I yield back.
    Mr. Rogers. The chair now recognizes the gentleman from 
Alabama, Mr. Brooks, for 5 minutes.
    Mr. Brooks. Thank you, Mr. Chairman.
    As you can imagine, defense budget spending is a major 
issue on Capitol Hill right now. By way of example, I was just 
notified that in a few minutes I am supposed to meet with the 
chairman and some other GOP HASC members about the Tom Price 
budget and the President's budget.
    We all understand the adverse effect the Budget Control Act 
of 2011 and sequestration has had on defense capabilities. I 
want to focus on a little bit different light, the President's 
budget proposal versus the Tom Price budget proposal and how 
that impacts what you do.
    In that vein, the President has proposed a budget, $561 
billion for base national defense, $51 billion for overseas 
contingency operations--OCO--for a total of $612 billion.
    The Tom Price budget complies with the requirements of the 
Budget Control Act of 2011. Base national defense spending is 
at $523 billion, but, as a sweetener, he adds $90 billion for 
the OCO, totaling $613 billion.
    So you have got $612 billion in total defense spending, 
President Obama, $613--a little bit more--Tom Price, but then 
you have got the base difference of $38 billion more under the 
Obama proposal, OCO $39 billion more under Tom Price.
    Shifting this money from base to OCO, how does that affect 
your commands in the programs that you oversee? And if we could 
just go from my right to left, General Mann first, Admiral 
Syring, and on down.
    General Mann. Thank you, Congressman.
    I would say that what is really essential is that we have 
some predictability with our programs so that we are able to 
work with our industry partners and provide a plan or a 
requirement that is not subject to a lot of variability in 
terms of what the funding is going to be. So I would just leave 
it at the fact that predictability is key.
    Mr. Brooks. And which provides better predictability? The 
base or the OCO?
    General Mann. I think having more in the base would provide 
that predictability.
    Mr. Brooks. Right. Thank you.
    Admiral Syring. Sir, we've never at MDA spent or received 
OCO. Obviously, in the base would be better for us, unless 
there was some rule change that allowed us to do that in an 
efficient manner. But my preference, sir, would be in base.
    Mr. Brooks. So, if I understand correctly, as OCO spending 
has been spent in the past, the additional sums going to OCO 
would have no beneficial effect for the MDA?
    Admiral Syring. As currently structured, that is correct. 
Yes, sir.
    Mr. Brooks. Admiral Gortney.
    Admiral Gortney. I will echo. It is the authorities that go 
and how you are allowed to spend base and how you are allowed 
to spend OCO. And for the critical investments that Admiral 
Syring needs to make, he doesn't have the authorities in order 
to do it.
    Secretary Carter and General Dempsey yesterday went on the 
record that we want to be the best stewards of the American 
taxpayers' dollars. And keeping the money in the base and then 
use OCO for what OCO is for allows us to do that.
    Mr. Brooks. Mr. McKeon.
    Mr. McKeon. Congressman, I don't have a great deal to add 
to that. Since the beginning of the administration, we have 
tried to do an exercise to move things from OCO to base so that 
we don't get heavily dependent on OCO.
    We haven't entirely succeeded in that. But I think base 
spending is always preferable. But in this budget for Admiral 
Syring, I don't believe we have any request in the OCO.
    Mr. Brooks. Consistent with what we have stated, the 
adverse effect of money being in OCO as opposed to base, there 
seems to be an effort behind the scenes to free up OCO so that, 
in effect, we would have one massive budget of $613 billion and 
OCO funds could be used as base funds have been used in the 
past, understanding that this would be novel understanding, 
that we would have to get the votes from somewhere to make this 
change in our laws.
    Would that affect your answers any?
    General Mann. Again, Congressman, going back to my earlier 
point, I think predictability and the rules, the authorities, 
surrounding those appropriations would be key. Whatever would 
give us that predictability that would limit the amount of 
variability I think is what we are focused on.
    Admiral Syring. No, sir.
    Admiral Gortney. Again, it goes back to the authorities of 
where we can make investments, where we can spend the money. We 
have always had operational costs where we called it earlier 
things before the wars 14 years ago to pay supplementals, to 
pay for operations around the world.
    And so it really comes to the authorities. If someone is 
going to do that, with it has to come the authorities to spend 
the money where we need to spend the money to make the best 
decisions for the American people.
    Mr. Brooks. Well, thank you, Mr. Chairman. I see my time 
has expired. Please forgive me. I am going to run and see what 
the chairman of Armed Services has to say.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes the gentleman from Tennessee for 
some additional questions.
    Mr. Cooper. Thank you, Mr. Chairman.
    Our colleague, John Garamendi, has been called away to 
California for a family emergency. But he wanted these two 
questions asked; so, I will do so on his behalf.
    Number one, directed energy. How much money is needed to 
advance directed energy research at the most rapid pace 
possible?
    Admiral Syring. Sir, we are rapidly--we requested in this 
budget a significant increase in directed energy. We are 
requesting over $1.3 billion, both unclassified and classified, 
funding, which is a several-hundred-million-dollar increase 
over last year's budget. And I think it is right in terms of 
the balance of those resources.
    Mr. Cooper. Thank you. Second question is: How much 
progress is being made on improving the reliability of current 
antimissile interceptors? Do we have a reasonable chance of 
defending the United States today with the current inventory?
    Admiral Syring. I will answer the first part and then let 
Admiral Gortney answer the second part.
    The budget request that I have put forward and the 
additional funding for the GMD program is focused on 
reliability and improving reliability of the current fleet and 
the future fleet.
    We believe we have the right balance between those two in 
terms of focusing on what we know about for the current fleet, 
improving the reliability of those that we are fielding, and 
then keeping the design going for the new one, which is the RKV 
[redesigned kill vehicle], which will be tested well before it 
is fielded.
    Admiral Gortney. I have high confidence in the current 
system against the current threats. And I have that because of 
the way of the testing program that we have as we assess the 
threats that are out there that it is designed to go against 
and our ability to test and exercise the system of systems that 
makes up this architecture.
    Should that change and I lose confidence, I will be the 
first to tell you that I lost confidence in the system, but I 
do not have that here. And as long as we are able to properly 
fund the capabilities that we have asked for in the budget and 
we are able to execute the testing and maintain the test 
schedule and we have the intel to see if we are pacing the 
threat, I am comfortable with it. But if it fails to do that, I 
will come back and tell you.
    Mr. Cooper. Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The chair now recognizes the gentleman from Oklahoma, Mr. 
Bridenstine, for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Admiral Syring, thank you for spending time with me in my 
office just a couple of days ago. We had a number of great 
conversations.
    First of all, I would like to publicly congratulate you for 
the successful test of FTG-06b. I know that maybe some of the 
tests before that were not perceived as being successful, but I 
would attest that every test there are lessons learned and we 
gain a lot from that. Even though some tests are not deemed as 
being successful, we learn a lot from that.
    And my question for you is: As we prioritize going forward, 
are we going to prioritize testing for all systems beyond GMD? 
What are your priorities for testing going forward?
    Admiral Syring. Sir, we are very busy over the next 2 to--
really, 2 to 4 years, and we have 12 tests this fiscal year, 
for example.
    We are going up with a big--our focus is operational 
testing of capabilities such as Aegis Ashore, which we will 
test this summer before Romania is fielded in another 
operational test, before Poland is fielded. To really put it 
into the tactical combatant commanders' scenario, to completely 
test an integrated scenario, that is one priority.
    The second priority is to continue to test as capability is 
developed. Aegis is rapidly developing increased capability 
with their Aegis weapon system baselines and their standard 
missile evolutions. And then what we don't talk too much about 
the sea-based terminal defense system, which will be tested 
this year as well.
    THAAD, again, will be tested this summer as part of the 
integrated strategy of the operational tests, and I think you 
will continue to see us test that to prove that confidence to 
the warfighters. So we are testing on all fronts. And it is not 
just homeland. It is the regional defense systems as well.
    Mr. Bridenstine. Admiral Gortney, did you want to add 
anything?
    Admiral Gortney. I am confident that his test schedule is 
exactly what we need. You are striking the fine line between 
how much test--we would always love to do more testing and more 
live fire tests. Who wouldn't? But striking that right balance 
gets confidence in the system, and I have confidence in the 
system today.
    General Mann. I would just add that I think the cadence is 
also right on track, too.
    Mr. Bridenstine. ``The cadence'' meaning the series of 
tests upcoming?
    General Mann. Exactly. And the frequency of doing those 
tests and when you are able to do them.
    Mr. Bridenstine. As far as funding, if there was more 
funding, would testing be prioritized going forward?
    Admiral Syring. That would be one lever we would turn.
    Mr. Bridenstine. When we think about MDA requesting $96 
million for the fiscal year 2016 technology maturation 
initiatives to build on the success of the discrimination 
sensors--we talked in my office about discrimination and 
targeting--this includes incorporating an advanced sensor into 
the MTS [multi-spectral targeting system] sensor.
    Has MDA considered allowing competition for these tasks to 
evaluate other proven sensors to meet the technology maturation 
initiative?
    Admiral Syring. Yes, sir. We have gone out to industry with 
an RFI--request for information--recently and are assimilating 
that information and assessing the competitive landscape.
    Mr. Bridenstine. Excellent.
    Fort Sill is in my State of Oklahoma. We are the Fires 
Center of Excellence there at Fort Sill. And Fort Sill is the 
institutional training base for THAAD. And I can tell you that 
I have been down there. What they do is really, really amazing 
work.
    The budget request includes $464 million for THAAD 
procurement to include the purchase of interceptors and 
training devices used at Fort Sill. It looks like there is an 
increased request in THAAD training to account for procuring a 
radar training device, a radar training device.
    Can you describe some of the devices that we are buying 
from a THAAD training standpoint. I guess this would be for 
General Mann or either----
    Admiral Syring. Well, let me talk about the radar training 
device to start with.
    That was really a good cost-based decision for us to make 
that choice. The previous path was to have a full TPY-2 radar 
there tied up for training. And, really, this training device 
allows us to do the same thing in terms of providing the 
soldier training on that device and not tie up a TPY-2 radar. 
As you know, Mr. Bridenstine, we have five TPY-2 radars 
forward-deployed and then seven which will go with the seven 
THAAD batteries.
    General Mann. As you know, the THAAD requirement is nine 
and right now we have the funding for the sixth. And we are 
working with MDA on that seventh battery. I mean, we are 
working the force structure.
    I think we have a good handle on providing the manning for 
that. But the equipment, as you well know, is extremely 
expensive. So where you are able to use a training device and 
not have to tie up a radar, that is critically important.
    Mr. Bridenstine. I am out of time. So thank you.
    Mr. Chairman, I'll yield back.
    Mr. Rogers. Thank the gentleman.
    The chair now recognizes the gentleman from the great State 
of Virginia, Mr. Forbes.
    Mr. Forbes. Mr. Chairman, thank you for this hearing.
    Gentlemen, thank you.
    And I know you are wearing uniforms. I am not going to put 
you in the political quandary of these money arguments that you 
have had. But I think it would suffice it to say that, if you 
have the money plus the authority to use the money, that meets 
your demands, and if you don't get money plus the authority, we 
are in kind of a crisis situation. That is the testimony we 
heard yesterday.
    I am not going to ask you guys to say this. But the 
Secretary of Defense embarrassed himself yesterday. He lost a 
lot of credibility when he said, even if we got the money and 
the authority, that he would turn it down unless the EPA 
[Environmental Protection Agency] and IRS [Internal Revenue 
Service] and every other governmental program got sequestration 
lifted for that. And I am just going to tell you that is a 
travesty and I hope somebody in the Pentagon changes that.
    Mr. McKeon, I want to ask you this question. 2009, the 
President announced the cancellation of his planned deployment 
of long-range missile defense interceptors and equipment in 
Poland and the Czech Republic and, basically, we put that on 
Navy ships.
    Is that a fair assertion, that gap, that we used the BMD, 
that we put it on the Navy?
    Mr. McKeon. The European Phased Adaptive Approach has 
several phases which we are working through, the first phase 
being a radar in Turkey, second phase we have got some Aegis 
ships----
    Mr. Forbes. What additional force structure did that 
require of the Navy, based on that decision?
    Mr. McKeon. We are forward-deploying four BMD Aegis ships 
to Spain. There are two there now. And there will be two more 
assigned--or will show up there this year. They have other 
missions that----
    Mr. Forbes. But if they have that BMD on them, if they 
don't have the upgraded software, can they do the other 
missions that the Navy would use them for?
    Mr. McKeon. I better defer to one of the admirals to my 
left to answer that question.
    Admiral Gortney. They are BMD ships. They are full-up 
capable ships. The only thing from a Flight IIA capability, 
they don't have the helicopter platform. But they are able to 
do the range-of-missile test.
    Mr. Forbes. But, basically, Admiral, when you use them for 
BMD, the Navy can't use them with the flexibility it would have 
used them for other----
    Admiral Gortney. Yes, sir. The naval component there would 
be constrained to, if it is for a BMD mission, he has to do the 
BMD mission.
    Mr. Forbes. Did the Navy get any additional monies or 
resources to do that?
    Admiral Gortney. We received--I am out of my lane here just 
a little bit. We received the money from MDA to make the 
necessary upgrades, but we were given no additional platforms 
to put them on.
    Mr. Forbes. So what I am worried about is that--we are 
worried about the number of platforms that the Navy has. And I 
am just looking--in fiscal year 2012 to 2014, I know there were 
44 ships that the combatant commanders needed based on their 
BMD requirements. But I am looking at fiscal year 2016. It is 
bumping up to 77. That is a huge jump.
    Can you tell us what is driving that increased demand. And 
if we removed five cruisers from our fleet, how would that 
impact the BMD capabilities that we have, the five with BMD 
capabilities only?
    Admiral Gortney. Well, in my previous force provider role, 
sir, the reason for the demand signal going up is the 
proliferation of the theater ballistic missile threat that--the 
BMD-equipped Aegis are a piece of the system of systems to 
defend that area for. So it is because of the proliferation of 
the threat and the global nature of it that demand signal from 
the COCOMs has gone up.
    The ability to--CNO had to take five BMD upgrades out of 
the budget. The money wasn't there in order to do it. The 
downside of that is delaying the capability and the op tempo on 
the forces--the operational tempo of those forces that are 
manned, trained, and equipped do that mission today.
    The forward-going to Rota really helped in that regard. 
When we can forward base forces, it reduces that rotational 
demand signal. When they get fully up, that is going to reduce 
the strain significantly for the east coast force. But it is 
just the reality and supports the memo that the Chief Staff of 
the Army and the CNO put out on going after the op tempo and 
going after the cost group.
    Mr. Forbes. So the forward-deployed--the four that we are 
talking about that went to Rota and then you look at--the 
destroyers were the ones that we did the upgrades on. Is that 
correct?
    But what about the cruisers? If we took five cruisers out 
of the fleet, would that impede the capability that they have 
on them? How would that impact the deficit that we would have?
    Admiral Syring. It would impact delivered BMD capability 
and it has been accounted for, Mr. Forbes, in the 43 ships that 
would be delivered by the end of 2020, now given the Navy's 
plan to reduce five more. But there is an impact to BMD.
    Mr. Forbes. Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentleman.
    We are going to be called for votes in just a few minutes, 
but I want to try to get a few more things on the record while 
we are still in open session.
    Mr. McKeon, when you first testified before this committee 
last December, among the responses to Russia's violation of the 
INF treaty were some ``defensive options.''
    Can you tell me, is modification of our Aegis Ashore site--
and I am thinking specifically in Deveselu, Romania--to provide 
it with some sort of AAW [anti-air warfare] capability that is 
intrinsic to it on our ships--would that be among those options 
that you are considering?
    Mr. McKeon. Mr. Chairman, I am hesitating because I am not 
at liberty to get into the details on some of the options that 
we are still working through. If I could, I would like to talk 
to you about this a little bit more in the closed session.
    Mr. Rogers. I will state to you that I proposed this 
yesterday to Secretary Carter in open session because I think 
it is a very important signal to send, that we intend to 
protect that site and that there are consequences to the 
aggressive behavior that we have seen recently and the 
capabilities of those missiles that they are illegally testing.
    But, anyway, Admiral Syring, when I asked you about this 
option last year, you responded it would be essentially a minor 
hardware and software modification to make this happen. Is that 
right?
    Admiral Syring. That is correct, sir.
    Mr. Rogers. How does the cost and capability compare to 
other options we could deploy, such as the Patriot battery?
    Admiral Syring. Sir, I am not in a position to make that 
judgment. I am in a position to say that modifications are the 
same that are fielded today on ships at sea, and we are not--
the baseline is the same, but we have not enabled that 
capability because it has never been about defense of that site 
from----
    Mr. Rogers. I would like to request that, if you could in 
the next couple of weeks, kind of get me some information about 
what you think it would cost to make those modifications to 
that site.
    Admiral Syring. Yes, sir.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Rogers. General Mann, do we have any spare Patriot 
batteries laying around?
    General Mann. No, Congressman.
    Mr. Rogers. Would you please also get back to me in the 
next couple of weeks as to how much you think it would cost if 
we were to take one of our Patriot batteries which is currently 
being utilized and move it to Deveselu.
    General Mann. Yes, sir.
    [The information referred to can be found in the Appendix 
on page 109.]
    Mr. Rogers. Thank you, sir.
    Admiral Syring, as you know, Chairman Thornberry and 
Ranking Member Smith are actively engaged across the whole 
committee with looking at how to reform the acquisition process 
in DOD, which we all agree is broken.
    Tell me why is MDA's unique acquisition authority still 
important.
    Admiral Syring. Well, as you know, Mr. Chairman, it dates 
back to 2002. And the authorities given to MDA were to rapidly 
develop capability and field to the warfighter based on the 
urgent need not just with the homeland defense system, but the 
regional defense systems.
    As you know, the homeland defense system was fielded 
rapidly under those authorities and it was to put a stopgap 
measure in place for the escalation that we were seeing with 
North Korea, and it served its purpose.
    Now we are back increasing the reliability and increasing 
the capability of that system, but it allowed us to rapidly 
field that system. It has also allowed us to rapidly field and 
test THAAD, which has been fielded and fielded in numbers and I 
think greatly helped the warfighter in giving them options for 
deployment to the future.
    I would like to say, sir, we are under a tailored 5000 
process. So it is not without oversight. We go through a very 
rigorous process in terms of boards leading up to the quarterly 
Missile Defense Executive Board at the Mr. Kendall level. The 
programs are under strict baseline control that I report every 
year to Congress. So that accountability is there.
    The other part of the authority serves in the JCIDS [Joint 
Capabilities Integration and Development System] process. And, 
technically, we are not under----
    Mr. Rogers. Under the what process?
    Admiral Syring. The JCIDS process, the requirements 
process.
    And that said, we are not completely oblivious to that 
process. We have integrated priorities that are validated by 
the combatant commanders, NORTHCOM in particular and then 
STRATCOM at the higher level, that integrates those priorities.
    And then the last piece would be--but when we need an 
integrated requirement with Joint Staff sort of buy-in, we are 
not hesitant to go do that. And we did that with the homeland 
defense requirement. As I was starting the radar development, 
as I was starting the kill vehicle development, we felt it is 
imperative that we get an overarching requirement from the 
Joint Staff, and we did that.
    Mr. Rogers. Does anybody else feel like they need to offer 
anything else on that? Great.
    All right. There goes the votes. Let me try to get 
something else in.
    Last November the Chief of Staff of the Army and the Chief 
of Naval Operations wrote Secretary Hagel detailing their 
concerns about their ability to meet combatant commander 
requirements for missile defense capabilities.
    The Secretary, on the other hand, responded that he 
concluded our strategy is sound and that services should 
provide viable missile defense capability.
    Admiral Gortney--well, this would be for any one of you. Do 
you share the services, the Navy and Army accept--do your 
services, the Navy and Army, accept the missile defense as a 
core mission?
    Admiral Gortney. Yes, sir. I do view missile defense as a 
core mission. And it is missile defense from the range of 
capabilities that are out there, whether it is a homeland 
defense mission or whether or not it is defending the defended 
asset list, a shore facility or on a float facility that is out 
there. It is key. We train to it. It is an integrated process.
    General Mann. Sir, it is a core capability for the Army.
    Mr. Rogers. I want to get back to that initial threshold 
question I started with when I opened this hearing.
    Do you believe that you are going to be able to continue to 
responsibly maintain that core capability at current 
sequestration spending trend lines?
    General Mann. We are going to be challenged. There is no 
doubt about that. I can tell you that the leadership of the 
Army closely monitors, almost on a weekly basis, the op tempo 
that we are going under. And I think what we are really 
concerned about is the balance between readiness and science 
and technology investments.
    And so we talked about the threat evolving and the fact 
that we need to make upgrades to our systems and leverage 
technology. That is at risk under sequestration because we have 
got to make sure that readiness is there to deploy folks 
downrange.
    Mr. Rogers. Yeah. I guess the thing I am trying to get at 
is: One thing we know about the military. You all do a lot of 
planning, and it is the responsible thing to do. You all see 
what the future holds under the BCA defense spending caps in 
the out-years going forward.
    I am curious to know: Is there a point in 2019, 2020, 2021, 
whatever, that you say, ``At that point, I have an 
unfortunately high degree of confidence we will no longer be 
able to maintain in a responsible fashion that core mission or 
sustain it''? And that would be for any one of you.
    Admiral Gortney. Our ability to predict the future is not 
very good. Just 3 short years ago, when we predicted the 
international security environment that we are in today, we 
didn't exactly get that right. That is the challenge.
    And so the impacts of the implementation of sequestration 
is the quickest way to hollow the force out. And that 
hollowness isn't linear. It is exponential. And it is the way 
the services have to go after readiness in order to do it. But 
it is not predictive in nature. We won't be able to execute the 
range of missions that we are supposed to do out there.
    And what further complicates that, if we predict the 
threats capability wrong and it comes left, now we are in a 
very, very untenable position. So making the necessary 
investments and making the investments in current readiness, 
which is investments in future readiness, is absolutely 
critical.
    Mr. Rogers. The gentleman from Tennessee wants to ask 
something.
    Mr. Cooper. This week is so crucial because what we are 
really talking here is fixing a problem that will otherwise 
plague us for the next 7 years. So if we can get a better 
outcome now, we could be saving you gentlemen and your 
successors a 7-year nightmare here. So these talks like Mr. 
Brooks was talking about with the chairman is a very important 
time for the military to weigh in, very clearly.
    Mr. Rogers. Before we leave, let me ask one more thing. And 
this would be for any one of the three of you.
    Sorry, Mr. McKeon.
    To the extent the Army and Navy are concerned about 
changing the current acquisition approach for missile defense, 
where are their alternatives? And where do you see them in the 
2016 FYDP?
    Admiral Syring. Mr. Chairman, I see opportunity in terms of 
the discussion that is going on within the building in terms of 
integration of left- and right-of-launch capability.
    In terms of missile defense, can't be the only measure in 
terms of how we defeat the threat. We are part of a solution 
that must be integrated into an overall combatant commander 
strategy for defense of the homeland and our regional partners.
    General Mann. Congressman, the only thing that I would add 
to that is I think it is critically important that we really 
leverage partner capabilities. And we know that a lot of 
countries around the world are buying a lot of technologies and 
are developing a capability. And so we have different 
exercises, like Nimble Titan, where we work with NATO and other 
partners in the GCC [Gulf Cooperation Council] and, also, in 
Korea and Japan.
    And this has to be more than just a U.S. solution to global 
missile defense. We have to move out and really take our game 
to another level in terms of partnering with our allies, in 
terms of foreign disclosure, in terms of information-sharing, 
so that it is more than just the U.S. addressing this global 
issue.
    Mr. Rogers. Okay. With that, we will recess for about 30 
minutes. I think we will then be able to get back in 2337.
    With that, stand in recess.
    [Whereupon, at 10:14 a.m., the subcommittee proceeded in 
closed session.]

      
=======================================================================

                            A P P E N D I X

                             March 19, 2015

=======================================================================
  
              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 19, 2015

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 19, 2015

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. ROGERS

    General Mann. As noted in the Fiscal Year 2016 Army posture 
statement, demand for Patriot assets ``exceeds our capacity, 
significantly limiting options in emerging crises, and exceed[s] the 
Army's ability to meet Department of Defense deployment-to-dwell 
rotation goals.'' A deployment of a Patriot Battery to Romania would 
require an adjustment to the current worldwide posture and could delay 
critical modernization of Patriot equipment. However, if directed by 
the Department, the Army would explore several possible options to 
provide a Patriot Battery capability to the Deveselu, Romania region. 
The most cost effective option is a nonpermanent, deployment of a 
battery from the Continental U.S. to Deveselu. Based on very 
preliminary analysis, the estimated annual tactical movement and 
operational sustainment costs for a battery is approximately 
$7,000,000. This estimate assumes that current Patriot hardware 
(missiles, launches, fire control, and radar) would be transported to 
Deveselu and that the battery's manning would be sourced from current 
Army Patriot force structure. The estimate does not provide for 
military construction of any personnel quality of life facilities but 
we expect that, at a minimum, items such as physical fitness equipment, 
laundering facilities, and some morale, welfare, and recreational 
assets would be required. Likely force protection infrastructure, such 
as fencing and personnel for perimeter security, is not included in the 
estimate. Finally, as with all other Patriot locations, there could be 
other operational requirements to provide the desired capability.   
[See page 23.]


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 19, 2015

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. There has been quite a bit of media reporting on the 
possibility of deploying missile defense assets to South Korea and 
Japan and China's objections to this. Could you speak to these systems? 
What kind of protection would they provide our allies in the Asia-
Pacific region?
    Mr. McKeon. The Department of Defense maintains a robust set of 
missile defense capabilities in the Asia-Pacific region, including 
PATRIOT units deployed in the Republic of Korea and Japan as well as 
forward-deployed ballistic missile defense-capable Aegis ships at 
Yokosuka, Japan. In time of crisis, the Department also maintains the 
ability to surge additional ballistic missile defense capabilities into 
the region in times of crisis in defense of forward-deployed U.S. 
forces and our allies and partners. Although I cannot comment on 
specific internal deliberations regarding the current and future 
disposition of these systems, I can say that the Department continually 
evaluates the global positioning of U.S. ballistic missile defense 
forces in order to meet Combatant Commander requirements, including 
forces assigned and/or allocated to the defense of U.S. interests on 
the Korean Peninsula and in Japan.
    Mr. Rogers. Japan already has Aegis ships for the defense of its 
territory from North Korea ballistic missiles. Can you tell me what 
value you think Aegis Ashore could have for Japan?
    Mr. McKeon. The Aegis Ashore weapon system is currently not 
available for purchase through the Foreign Military Sales program. 
Should the U.S. Government decide to make this system available to our 
allies and partners as an upper-tier capability, it would provide a 
valuable contribution to a layered ballistic missile defense 
architecture. In the case of Japan, Aegis Ashore would complement the 
Japanese Air and Maritime Self-Defense Force's existing PATRIOT and 
sea-based Aegis ballistic missile defense platforms.
    Mr. Rogers. The intelligence community has remained consistent over 
the years that the Iranians may have an ICBM capability by 2015. Are we 
still operating under that threat analyses? What more can we do to be 
adequately prepared to defend against this threat?
    Admiral Gortney. Iran may attempt to orbit a satellite this year 
using the Simorgh space launch vehicle, an intercontinental ballistic 
missile (ICBM)-class booster. However, we have no evidence to suggest 
Iran has developed a reentry vehicle or warhead for the Simorgh, and we 
assess Iran will not be able to deploy an operational ICBM until later 
this decade at the earliest. Operationally, we are ahead of the threat 
today, but to remain out in front of 2020 adversaries we need to 
continue investments which improve our existing capabilities, such as 
improving our sensor architecture, enhancing the lethality of our kill 
vehicles, and sustaining/testing the ballistic missile defense system.
    Mr. Rogers. At the SASC hearing last week, you stated: ``we want 
every one of our kill vehicles to be as effective and as lethal as 
possible, and as well as the means to develop other ways that we can 
get more kill--kill vehicles into space.'' It sounds like you're 
describing the old ``Multiple Kill Vehicle'' or current ``Multiple 
Object Kill Vehicle.'' Is that right? Can you please describe how 
valuable you think this capability could be?
    Admiral Gortney. I was referring to the need to continue funding 
high payoff technologies that afford us the opportunity to reduce the 
cost per engagement. The Multiple Object Kill Vehicle could be one such 
program; other programs potentially include the rail gun and use of 
directed energy. In addition, the Redesigned Kill Vehicle will provide 
improvements in both effectiveness and reliability. Collectively, these 
systems have the potential to provide a layered defense with more 
overall lethality than today's ballistic missile defense system.
    Mr. Rogers. Please describe your strategy for procurement of the 
CE-2 block 1 kill vehicle and planned flight tests of that kill 
vehicle? Is it low risk? Is it consistent with the ``fly before you 
buy'' approach to acquisition?
    Admiral Syring. The Missile Defense Agency's (MDA) strategy for 
procurement of the CE-II Block 1 kill vehicle is to deliver 11 Ground 
Based Interceptors (GBIs) (one test article for Flight Test GBI (FTG)-
15 and 10 operational GBIs) on the Development and Sustainment 
Contract. This acquisition strategy supports the Secretary of Defense 
mandate to field and emplace 44 GBIs by the end of 2017.
    The MDA strategy for flight testing the CE-II Block 1 kill vehicles 
consists of two flight tests in advance of fielding the remaining 
interceptors. The initial flight test, Control Test Vehicle (CTV)-02+, 
scheduled for December 2015, is a non-intercept flight test of a CE-II 
kill vehicle, using alternate divert thrusters. The CE-II kill vehicle 
was successfully demonstrated in Flight Test GBI (FTG)-06b. The second 
event, an intercept test of a fully configured CE-II Block I 
interceptor (FTG-15), is scheduled in December 2016.
    The MDA considers this strategy low risk for several reasons. 
First, robust ground testing of all new CE-II Block I components will 
ensure they meet space vehicle specifications. MDA Ground-based 
Midcourse Defense (GMD) plans to spend $5.9M for boost vehicle 
electronics reliability testing in fiscal year (FY) 2016 to support 
this effort. Second, the commonality between the existing CE-II kill 
vehicle and the Configuration I Integrated Boost Vehicle lowers risk by 
utilizing previously qualified flight hardware. GMD plans to spend $3M 
in FY 2015 and $11.7M in FY 2016 for this effort as part of the 
Stockpile Reliability Program. Third, MDA's incremental approach to 
flight testing lowers risk by testing the kill vehicle's alternate 
divert thrusters in an operational environment (CTV-02+) and validating 
a fully configured CE-II Block 1 (FTG-15) prior to missile field 
emplacement.
    The intercept flight test in FY 2016 (FTG-15) precedes delivery of 
the GBIs to the warfighter. All components used in the CE-II Block I 
kill vehicle and boost vehicle will complete space qualification 
testing prior to procuring the parts used for manufacturing.
    Mr. Rogers. There has been quite a bit of media reporting on the 
possibility of deploying missile defense assets to South Korea and 
Japan and China's objections to this. Could you speak to these systems? 
What kind of protection would they provide our allies in the Asia-
Pacific region?
    Admiral Syring. The Missile Defense Agency (MDA) defers questions 
regarding deployments of missile defense assets in East Asia to the 
United States Pacific Command. The United States developed the Aegis 
Ballistic Missile Defense (BMD) system, the Terminal High Altitude Area 
Defense, and the Phased Array Tracking Radar to Intercept on Target 
(PATRIOT) missile defense system. These regional systems have 
demonstrated the ability to provide protection against short-, medium- 
and intermediate-range ballistic missiles. South Korea and Japan have 
purchased PATRIOT systems and Japan has Aegis BMD capable ships with 
Standard Missile (SM)-3 Block IAs in addition to a United States-Japan 
cooperative effort to develop the Aegis SM-3 Block IIA.
    Mr. Rogers. The intelligence community has remained consistent over 
the years that the Iranians may have an ICBM capability by 2015. Are we 
still operating under that threat analyses? What more can we do to be 
adequately prepared to defend against this threat?
    Admiral Syring. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. What is the way ahead on M-O-K-V? How important do you 
think it is and can we move faster on this program?
    Admiral Syring. The Missile Defense Agency plans to award several 
contracts in fiscal year 2016 to define Multi-Object Kill Vehicle 
(MOKV). In parallel, we will reduce technical risk in several critical 
areas. For example, by 2017, we will develop and test command and 
control strategies in both digital and Hardware-in-the-Loop venues to 
prove we can manage the engagement of several targets using multiple 
kill vehicles from a single interceptor.
    We will also invest in communication architectures and guidance 
technology that support this game-changing approach. Ultimately, this 
capability will revolutionize our missile defense architecture by 
substantially improving interceptor inventory management in raid 
scenarios against an evolving and more capable threat to the homeland. 
We believe MOKV is an essential element in our defense against advanced 
threats and that it can also decrease cost-per-kill by reducing the 
number of interceptors required to destroy an incoming reentry vehicle.
    Based upon lessons learned from past development efforts, we are 
employing a disciplined, structured approach to developing this 
capability. Our plan allows the Agency to first understand the 
feasibility of potential concepts and ensures we mitigate key 
technology risks before making a decision to develop the MOKV system.
    Mr. Rogers. Japan already has Aegis ships for the defense of its 
territory from North Korea ballistic missiles. Can you tell me what 
value you think Aegis Ashore could have for Japan?
    Admiral Syring. Deployment of Aegis Ashore (AA) provides a 
dedicated system that would provide a continuous missile defense 
capability. Any future Japanese purchase and deployment of AA in Japan 
could free some Japanese Aegis ships to support other Aegis missions 
(e.g. air defense, cruise missile defense, surface defense and undersea 
defense) or provide redundancy and capacity when facing a raid of 
theater-class missiles.
    Mr. Rogers. Admiral, what role, if any, do you see for Aegis Ashore 
for Homeland Defense?
    Admiral Syring. [The information is classified and retained in the 
committee files.]
    Mr. Rogers. There has been quite a bit of media reporting on the 
possibility of deploying missile defense assets to South Korea and 
Japan and China's objections to this. Could you speak to these systems? 
What kind of protection would they provide our allies in the Asia-
Pacific region?
    General Mann. While no agreement currently exists, deployment of 
the Terminal High Altitude Area Defense (THAAD) system would increase 
missile defense coverage of both U.S. and allied forces against North 
Korean's short- and medium-range ballistic missiles. A potential THAAD 
in South Korea, in addition to the existing Patriot Advance Capability-
3 (PAC-3) systems, the Army Navy/Transportable (AN/TPY-2) Radars, and 
the THAAD currently deployed to Guam, provides expanded defense in the 
Asia-Pacific region.
    Mr. Rogers. The intelligence community has remained consistent over 
the years that the Iranians may have an ICBM capability by 2015. Are we 
still operating under that threat analyses? What more can we do to be 
adequately prepared to defend against this threat?
    General Mann. The missile defense community concurs with the 
accuracy of the Intelligence Community assessment regarding the 
possibility of Iran possessing an ICBM by 2015. We must continue the 
Department's ballistic missile defense modernization efforts, to 
include the long range discrimination radar and the enhanced kill 
vehicle design. Clarifying details can be provided in the appropriate 
environment.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. Where do reliability and improving shot doctrine rank 
in your priorities? Why?
    Mr. McKeon. Improving Ground-Based Interceptor (GBI) reliability 
and lethality is a top priority in the Department of Defense. The 
planned improvements to the Ground-based Midcourse Defense (GMD) system 
will enable Commander, U.S. Northern Command to consider changing the 
current shot doctrine to make more efficient use of the limited number 
of deployed GBIs. The Missile Defense Agency (MDA) is working on GBI 
reliability and lethality. I defer to MDA to provide the details on how 
MDA is addressing this challenge.
    Mr. Cooper. Where do reliability and improving shot doctrine rank 
in your priorities? Why?
    Admiral Gortney. My top three concurrent priorities are: (1) 
improve our sensors, (2) enhance the lethality of our kill vehicles, 
and (3) sustain/test the ballistic missile defense system. When 
realized, these priorities will improve ground-based interceptor 
reliability and may influence my shot doctrine.
    Mr. Cooper. What are the risks of not conducting a flight test 
before producing the SM3-IB interceptors? How much would a flight test 
cost, versus a ground test?
    Admiral Syring. While ground testing simulates flight test 
conditions with high confidence, not all flight vibration and shock 
environments can be replicated exactly in ground testing. Therefore, 
the risk of not conducting a flight test before producing the SM-3 
Block IB would be not being able to identify a potential unique 
anomaly, which occurs only in flight. However, MDA considers the risk 
of such a unique anomaly occurring in flight to be low due to 
comprehensive ground test parameters that are often more stressing than 
flight conditions.
    The total cost per flight test is estimated to be $28M. A ground 
test of a single TSRM motor at simulated altitude costs approximately 
$500K.
    Mr. Cooper. Where do reliability and improving shot doctrine rank 
in your priorities? Why?
    Admiral Syring. Ground-Based Interceptor (GBI) reliability is one 
of the Missile Defense Agency's (MDA's) top priorities. The U.S. 
Northern Command (USNORTHCOM) commander determines the appropriate shot 
doctrine for homeland defense based on the fielded Ballistic Missile 
Defense System's capabilities. USNORTHCOM fires multiple GBIs at each 
threat to ensure high defense effectiveness. Firing multiple GBIs at 
each threat ensures defense even if GBIs have lower than expected 
reliability or target the wrong object.
    MDA is improving both the GBI reliability and sensor/kill vehicle 
discrimination to provide the warfighter with confidence of meeting 
mission requirements with fewer GBIs allocated to each threat. MDA 
completed a GBI Fleet Assessment last year that pointed out the need 
for improvements in reliability of the Exo-atmospheric Kill Vehicle, 
booster, and ground systems. MDA has introduced an enhanced Stockpile 
Reliability Program to better understand the service life and 
reliability of the fielded fleet and is conducting design and 
reliability analysis on the fielded Capability Enhancement-II GBIs to 
identify design changes to improve performance. The Redesigned Kill 
Vehicle program will substantially improve reliability for initial 
deployment in 2020. The Long Range Discrimination Radar and 
discrimination improvements for Homeland Defense will provide higher 
confidence in the GBI selecting the threat warhead. As reliability and 
discrimination improve, USNORTHCOM can consider changes to shot 
doctrine which could lead to a lower number of interceptors required to 
ensure engagement success.
    Mr. Cooper. How do you plan beyond 2020?
    Admiral Syring. The Missile Defense Agency (MDA) develops the 
Ballistic Missile Defense System (BMDS) out-year plan in collaboration 
with the Warfighters. Out-year plans are informed by BMD-focused 
reviews and Analysis of Alternative studies.
    More specifically, the U.S. Strategic Command leads the Warfighter 
Involvement Process, which generates the Prioritized Capabilities List 
(PCL). MDA, in turn, responds with an Achievable Capabilities List 
(ACL). BMDS system-level technical specifications are derived from this 
Warfighter-initiated set of requirements.
    Mr. Cooper. Are we on track for deployment of the Aegis Ashore site 
in Poland in 2018? What are the risks of accelerating this deployment 
to 2017? Are you able to accelerate the schedule for operational 
availability at this point and would you recommend acceleration? And 
would you then need additional SM3-IB interceptors? What would the cost 
be?
    Admiral Syring. The Missile Defense Agency (MDA) is on schedule to 
deliver Aegis Ashore in Poland in 2018 to support the European Phased 
Adaptive Approach Phase 3. At this time, no opportunities exist to 
accelerate the deployment of Aegis Ashore into 2017. The military 
construction acquisition is progressing, with planned construction to 
begin in Poland in early 2016 and completion in late 2017. Due to the 
critical dependency on completion of military construction, the 
installation and test of the Aegis Ashore system will begin in late 
2017 with a planned 2018 completion. Consequently, there are no 
requirements for additional SM-3 Block IBs in 2017.
    Mr. Cooper. Where do reliability and improving shot doctrine rank 
in your priorities? Why?
    General Mann. Operational reliability is my top priority. It 
provides the Warfighter confidence to execute the mission. We continue 
to support the Missile Defense Agency's investments to the existing 
ground-based interceptor (GBI) inventory and the development of new GBI 
capabilities.
    I defer to NORTHCOM regarding the potential impact of improved 
reliability on any modifications to the current shot doctrine.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SANCHEZ
    Ms. Sanchez. Understanding an East Coast missile defense site will 
cost $4 billion (not counting manning and other Army costs), should we 
begin construction on such a site? What are your priorities to 
strengthen defense of the East Coast?
    Mr. McKeon. The Department of Defense has made no decision to 
proceed with an additional Continental Interceptor Site (CIS) in the 
continental United States at this time. The current Ground Based 
Interceptor (GBI) sites at Fort Greely, Alaska, and Vandenberg Air 
Force Base, California, provide the capability required to protect the 
U.S. homeland against current and projected North Korean 
Intercontinental Ballistic Missile (ICBM) threats, as well as the 
future Iranian ICBM threat, should it emerge. Upgrading the kill 
vehicle on the GBI and enhancing the homeland defense sensor network 
are the priorities for improving protection against limited ICBM 
attack.
    Ms. Sanchez. What improvements can and should be made left-of-
launch?
    Mr. McKeon. The Department of Defense continues to explore a wide 
range of technologies to defeat missiles in all phases of flight and 
``left of launch.'' Ballistic missile defense systems will remain a 
vital component of protecting our territory and forces from ballistic 
missile attack, and we will continue to pursue technologies to enhance 
our capabilities to defend against such threats.
    Ms. Sanchez. Can you successfully execute the increase in FY16 
funding for GMD?
    Mr. McKeon. The Fiscal Year (FY) 2016 President's Budget request 
for Ground-Based Mid-Course Defense (GMD) has been carefully prepared 
to reflect the Administration's priorities for maintaining and 
improving the nation's homeland Ballistic Missile Defense (BMD) system. 
I defer to the Missile Defense Agency (MDA) to provide the detailed 
assessment of how the MDA would execute increased funding.
    Ms. Sanchez. Are we ahead of the threat now? Will we be ahead of 
the threat in 2020? And in 2025?
    Mr. McKeon. Yes. The Ballistic Missile Defense System (BMDS) is 
currently ahead of the assessed Intercontinental Ballistic Missile 
(ICBM) threat. Planned upgrades to the BMDS, including the Long-Range 
Discrimination Radar, the Redesigned Exoatmospheric Kill Vehicle, and 
sensor discrimination enhancements, will enable the BMDS to continue to 
pace the threat in the 2020 and 2025 timeframe. We regularly receive 
updated intelligence assessments on the development of the threat, and 
we make changes in our programs to keep ahead of the threat, as 
evidence by the changes to the program announced in March 2013.
    Ms. Sanchez. Understanding an East Coast missile defense site will 
cost $4 billion (not counting manning and other Army costs), should we 
begin construction on such a site? What are your priorities to 
strengthen defense of the East Coast?
    Admiral Gortney. I believe that before a decision is made to build 
a third ground-based interceptor site, we must ensure that our top 
three concurrent priorities are fully realized: (1) improve our 
sensors, (2) enhance the lethality of our kill vehicles, and (3) 
sustain/test the ballistic missile defense system. In addition, I 
believe that any decision about an East Coast missile defense site 
should be based upon the threat, which currently does not support the 
need at this time.
    Ms. Sanchez. What improvements can and should be made left-of-
launch?
    Admiral Gortney. I believe it is extremely important to invest in 
left of launch capabilities so that attack operations support the full 
spectrum of offense/defense integration and remain a vital pillar of 
Integrated Air and Missile Defense. To this end, these efforts should 
focus on making our intelligence and warning capabilities more robust 
against the threat, as well as developing and integrating new 
technologies into our Integrated Air and Missile Defense portfolio. 
Finally, these capabilities need to be operationalized across the 
combatant commands.
    Ms. Sanchez. Can you successfully execute the increase in FY16 
funding for GMD?
    Admiral Gortney. The Missile Defense Agency (MDA) is responsible 
for the execution of funding for the ballistic missile defense 
programs. As the warfighter, I am not the authority on MDA's 
programmatic planning. I recommend contacting VADM Syring to get the 
full details on FY16 budget execution.
    Ms. Sanchez. Are we ahead of the threat now? Will we be ahead of 
the threat in 2020? And in 2025?
    Admiral Gortney. We are ahead of the threat today, and to remain 
out in front of 2020 and 2025 adversaries, we need to continue 
investments that expand our existing capabilities, such as improving 
our sensor architecture, enhancing the lethality of our kill vehicles, 
sustaining/testing of the ballistic missile defense system, investing 
in advanced technologies to lower the cost per kill, and developing a 
kill assessment capability.
    Ms. Sanchez. Understanding an East Coast missile defense site will 
cost $4 billion (not counting manning and other Army costs), should we 
begin construction on such a site? What are your priorities to 
strengthen defense of the East Coast?
    Admiral Syring. The Department of Defense has made no decision to 
proceed with an additional CONUS Interceptor Site (CIS) at this time. 
The current Ground Based Interceptor (GBI) sites at Fort Greely, Alaska 
and Vandenberg Air Force Base, California, provide the capability 
necessary to protect the U.S. homeland against present and projected 
North Korean Intercontinental Ballistic Missile (ICBM) threats as well 
as the future Iranian ICBM threat, should it emerge. Upgrading the kill 
vehicle on the GBI and enhancing the homeland defense sensor network 
are the priorities for improving protection against limited ICBM 
attack.
    Ms. Sanchez. What improvements can and should be made left-of-
launch?
    Admiral Syring. MDA's current mission focus is right-of-launch 
(i.e., active missile defense). Potential left-of-launch questions 
should be addressed to Office of the Secretary of Defense (Acquisition, 
Technology and Logistics).
    Ms. Sanchez. Can you successfully execute the increase in FY16 
funding for GMD?
    Admiral Syring. Yes. The GMD program supports the President's 
Budget. The GMD program has an acquisition and contracting strategy to 
fully execute the increase in FY16 funding. Increased activity began in 
FY15 with the addition of $159 million in FY14 Above Threshold 
Reprogramming funds for work to be performed in FY15.
    Ms. Sanchez. Are we ahead of the threat now? Will we be ahead of 
the threat in 2020? And in 2025?
    Admiral Syring. Yes, we are staying ahead of the threat. The 
Ballistic Missile Defense System (BMDS) is keeping pace with the 
Intercontinental Ballistic Missile threat. Upgrades to the BMDS include 
the Long Range Discriminations Radar, the Ground-Based Midcourse 
Defense Redesigned Kill Vehicle and discrimination improvements that 
will allow the BMDS to continue to address threat capabilities in the 
2020 and 2025 timeframes.
    Ms. Sanchez. Understanding an East Coast missile defense site will 
cost $4 billion (not counting manning and other Army costs), should we 
begin construction on such a site? What are your priorities to 
strengthen defense of the East Coast?
    General Mann. We support the Missile Defense Agency's ongoing 
efforts to complete the environmental impact studies. These studies are 
a work in progress designed to streamline implementation should a 
decision occur in the future. While an East Coast site may increase 
capacity, battlespace, and geographic dispersion, the Warfighter's 
priority remains sensor architecture and ground-based interceptor 
reliability improvement.
    Ms. Sanchez. What improvements can and should be made left-of-
launch?
    General Mann. It is my view that defeating tomorrow's threat will 
require the ability to combine active, passive, defensive, and 
offensive capabilities in a coherent strategy. Advancing our ability to 
strike left-of-launch is essential to outpacing the threat. Engaging 
the ``archer'' will require improved and persistent intelligence, 
surveillance, and reconnaissance (ISR) capabilities. We must also 
continue to pursue technological development efforts related to non-
kinetic defensive capabilities, such as cyber warfare and directed 
energy.
    Ms. Sanchez. Can you successfully execute the increase in FY16 
funding for GMD?
    General Mann. With input from the Warfighter, the Missile Defense 
Agency is responsible for executing the research, development, 
procurement, and fielding of the Ground-Based Midcourse Defense System. 
I defer to the Missile Defense Agency to respond regarding execution of 
Fiscal Year 2016 funding.
    Ms. Sanchez. Are we ahead of the threat now? Will we be ahead of 
the threat in 2020? And in 2025?
    General Mann. The Ballistic Missile Defense System is currently 
ahead of the threat and provides the capability to defend the homeland 
against a limited ballistic missile attack from either North Korea or 
Iran. We continue to partner with the Missile Defense Agency, the 
Combatant Commands, and the Services to ensure we address, in a 
fiscally responsible manner, future ballistic missile threats.
    Ms. Sanchez. What studies are underway in response to the General 
Odierno/Admiral Greenert memo, what do they include, what are the 
timelines for the studies, do they cover costs and value provided, and 
do they cover all the questions posed in the memo?
    General Mann. Late last year, the Chief of Staff Army and the Chief 
of Naval Operations sent a memorandum to the Secretary of Defense 
(SECDEF) suggesting a more holistic approach to the nation's Ballistic 
Missile Defense (BMD) strategy. In his response, the SECDEF outlined 
several ongoing studies, to include the Strategic Portfolio and the 
Patriot Global Posture Reviews, which will shape future requirements 
and inform out-year budget submissions. In addition to these reviews, 
an update to the Joint Capability Mix (JCM) Study is currently 
underway. Led by the Joint Staff, JCM IV will update previous capacity 
and capability missile defense balance assessments within the various 
combatant command theaters. JCM IV is scheduled to conclude later this 
year. These studies, along with continuous collaboration amongst the 
Joint Staff and the Services, will outline a refined approach that is 
operationally more effective than the current method of matching 
specific active defense platforms against the various ballistic missile 
threats. They will address cost aspects, outline enhanced capabilities, 
and set the Department and the Services on a joint path to achieve the 
most efficient and effective mix of homeland and regional missile 
defense priorities.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. Please provide your vision or road map of what 
enhancements/improvements you believe need to be made to the Ground 
based Missile Defense (GMD) system, including the ground based 
Interceptors, the sensors, the battle management and the ground support 
systems, to meet future threats and also insure that the GMD system is 
reliable and viable into the 2030 time frame?
    Admiral Syring. [The information is classified and retained in the 
committee files.]
    Mr. Coffman. How has GMD's changing funding and support over the 
years affected the program? In what ways would it help to have your 
general plan for the future of the GMD program formally endorsed by the 
Congress?
    Admiral Syring. GMD's changing funding and support over the years, 
especially the increase from fiscal year (FY) 2015 to FY 2016, has 
allowed the Missile Defense Agency (MDA) to meet its program 
objectives. Approval of MDA's President's Budget 2016 request is 
sufficient to improve our ability to provide additional capabilities to 
the warfighter for homeland defense.
    The MDA's FY 2016 budget request will allow us to grow the number 
of currently deployed Ground Based Interceptor (GBI) fleet to 44 by the 
end of 2017, continue flight and system ground testing, and continue 
Redesigned Kill Vehicle (RKV) development. We will enhance the 
Stockpile Reliability Program, modify the current booster to increase 
survivability and hardness to support RKV integration, and expand the 
battle space to enable later GBI engagements. Additionally, MDA will 
upgrade the GMD ground system, and deploy upgraded GMD fire control 
software to enhance our ability to use land-based sensor discrimination 
data.
    Mr. Coffman. Currently MDA is on a path towards the emplacement of 
44 Ground Based Interceptors (GBIs) by the end of 2017 to fulfill 
current OSD policy to meet the growing threat from ballistic missile 
attack against the Homeland. Could you provide an update on where your 
agency is on meeting this requirement? Would additional funding be 
helpful to meeting this deadline?
    Admiral Syring. The Missile Defense Agency is on schedule to 
fulfill the requirement of 44 GBIs by 2017. Full support of the MDA's 
Fiscal Year 2016 Budget Request in 2016 and 2017 is required to meet 
the 44 GBIs by the 2017 timeframe.
    Mr. Coffman. How would an East Coast based sensor enhance the 
capabilities of the GMD system?
    Admiral Syring. [The information is classified and retained in the 
committee files.]
    Mr. Coffman. Currently the majority of the sensors that support the 
Ground based Missile Defense (GMD) system are ground based radars with 
the addition of the Sea Based X-Band Radar (SBX). What are the natural 
limitations of sea and ground-based sensors? What kinds of tracking and 
discrimination benefits would a space based sensor provide GMD?
    Admiral Syring. The range of surface-based microwave radars is 
limited by the curvature of the Earth to approximately 800 km for 
launch warning. The range of surface-based optical sensors is 
determined by the presence or absence of clouds.
    Surface-based radars provide timely and accurate tracks of threat 
missiles when they have a direct line of sight to the objects they are 
tracking. A more distant target must be further above the Earth for a 
fixed surface sensor to maintain its track. Therefore, surface sensors 
(either maritime or terrestrial) must be within approximately 800 km of 
a threat launch to track a substantial portion of its boost phase 
(needed for warning), and within 1500-2500 km of the launch to provide 
weapon guidance for timely intercepts. Access to neutral or friendly 
bases within detection range of potential launch locations may not 
always be possible, and even where available will always be subject to 
host nation basing restrictions. Ship-based radars may require advance 
notice for pre-positioning.
    Optical sensors offer greatly improved precision and accuracy 
relative to microwave radars. Unfortunately, optical sensors cannot see 
through clouds, which makes them impractical for viewing long range 
targets from surface locations in most parts of the world.
    Space-based sensors can cover much more of the Earth's surface than 
terrestrial or maritime sensors. Operating above the weather also 
allows them to use optical sensors that expand the set of measurements 
available, increasing the reliability of threat warhead identification.
    As potential adversaries develop increasingly complex threats it 
becomes necessary to view the target throughout its flight. The 
elevation of space platforms enables on-demand global coverage. 
Obtaining equivalent coverage of the U.S. from surface sensors would 
require substantially more sensors.
    The assessment of space-based sensors to provide tracking and 
discrimination benefits to the Ballistic Missile Defense System, as 
well as a broad range of other alternatives, is being considered in the 
ongoing Ballistic Missile Defense Sensor Architecture Analysis of 
Alternatives.
    Mr. Coffman. The committee understands that your agency has 
conducted some early work on lasers and airborne platforms for them. 
Can you share your general approach on such a system?
    Admiral Syring.
    <bullet>  Our vision is to shift the calculus of our potential 
adversaries by introducing directed energy into the BMDS architecture.
    <bullet>  Our long term goal is to use megawatt-class lasers on 
high altitude, long endurance UAV platforms to destroy ICBMs in the 
boost phase at long standoff ranges. To achieve this vision we must 
prove three key elements: laser power scaling to megawatt-class with 
high efficiency and excellent beam quality; demonstrating laser beam 
pointing stabilization much better than previous airborne lasers; and 
demonstration of a high altitude, long endurance aircraft to carry the 
laser and its beam pointing and control system.
    <bullet>  Our PB16 budget funds a structured plan that includes 
laser power scaling in the laboratory in parallel with reducing the 
risk of integrating a laser system onto an airborne platform and 
testing it in the field.
    <bullet>  In the 2025 time frame, our goal is to integrate a 
compact, efficient, high power laser into an unmanned aircraft capable 
of carrying that laser and destroying targets in the boost phase.
    Mr. Coffman. What would be the benefits of such a system to our 
overall Homeland Defense system?
    Admiral Syring. The benefit of the additional layer of a Directed 
Energy system would potentially reduce the number of threat missiles in 
a raid from a known launch point.
    Mr. Coffman. How quickly do you think that such a system could be 
ready for fielding?
    Admiral Syring. Fielding of an operational system depends on the 
combination of laser scaling success and availability of a sensible 
operational platform. MDA is pursuing the laser scaling effort which 
could produce an initial viable capability in the 2025 time frame. MDA 
will work with the Services to identify a suitable operational 
platform.
    Mr. Coffman. Do you need additional funds to accomplish the 
implementation of such a system?
    Admiral Syring. MDA's PB16 request is adequate for the next phase 
of Directed Energy development. Funding for an operational system would 
be beyond the current FYDP.
    Mr. Coffman. I am especially concerned about North Korea's progress 
on long-range missile development. Today, do you see any realistic 
alternative to fully leveraging and improving the GMD system for 
homeland defense against ICBM threats? Are you comfortable with the 
pace of GMD's improvements given the real threat to the U.S. homeland?
    Admiral Syring. Improving the Ground-based Midcourse Defense (GMD) 
system remains the most feasible, near-term alternative for defending 
the homeland against threats from North Korea. With the President's 
Budget (PB) for fiscal year 2016, we maintain our commitment to expand 
our inventory to 44 Ground Based Interceptors (GBI) by the end of 2017, 
continue flight and system ground testing, develop the Redesigned Kill 
Vehicle (RKV), enhance the Stockpile Reliability Program, modify the 
current booster to increase survivability and hardness, expand the 
battle space to enable later engagements, upgrade the ground system, 
and deploy fire control software that enhances our ability to use 
discrimination data.
    Our overall vision is to shift the calculus of our potential 
adversaries by introducing directed energy into the Ballistic Missile 
Defense System architecture for boost phase defense, while also 
increasing GBI capability, capacity and ability to defeat advanced 
countermeasures using Multi-object Kill Vehicles. The agency is 
investing in laser and kill vehicle technologies to achieve this 
vision.
    Our PB 2016 GMD programs and initiatives enable us to keep pace 
against the North Korean threat to the U.S. homeland.
    Mr. Coffman. MDA's budget justification material regarding the 
Redesigned Kill Vehicle (RKV) program states that, in FY16, MDA will 
expend funds to ``Initiate robust subsystem Design Verification Testing 
to include Electromagnetic Environmental Effects (E3), temperature, 
vibration and shock environments and Highly Accelerated Lifecycle 
testing to ensure increased reliability and producibility''. Does MDA 
plan to use current year (FY15) funds to initiate these activities 
during FY15 or instead wait until FY16 to begin these activities? By 
beginning these activities in FY15, would MDA have greater overall 
confidence in the RKV design and reliability? Does MDA itself plan to 
conduct these subsystem Design Verification Testing measures or will 
MDA issue guidance to its suppliers requiring the implementation of 
such rigorous testing methodologies?
    Admiral Syring. Yes, MDA is using current year (FY15) funds to 
initiate RKV development and to purchase critical components to support 
design verification testing. These critical components will be 
delivered in FY16, and will include E3, temperature, vibration and 
shock environment testing. We will use FY16 funding to conduct highly 
accelerated lifecycle testing.
    Beginning these activities in FY15, with the purchase of critical 
components, increases the overall confidence in RKV design and 
reliability. These activities are required to maintain the program's 
schedule.
    While some unique government facilities will be used to conduct 
specialized subassembly and payload testing, the majority of our 
verification activities will be conducted by the Contractor in 
contractor owned and operated facilities. MDA will issue guidance to 
the suppliers requiring them to implement rigorous testing 
methodologies.
    Mr. Coffman. The MDA Report to Congress entitled ``HALT/HASS 
Testing of Ballistic Missile Defense Systems and Components'', dated 
March 24, 2014, asserted that several on-going or planned missile 
defense programs, to include the AN/TPY-2 radar CUE CCA redesign, the 
Long-Range Discrimination Radar, and the GMD GBI EKV, would benefit 
from additional HALT/HASS work if funds were made available to do so. 
What is the status of MDA's plans to incorporate HALT and/or HASS 
testing on these programs? Does MDA plan to expend funds in FY15 or 
FY16 for these activities? If so, please provide a detailed breakout of 
where and how such funds will be allocated for this purpose (by year 
and by PE). If MDA has no such plans, please explain why this is the 
case in light of the statements included in the March 24, 2014 report 
regarding the potential value of implementing HALT/HASS on these 
programs.
    Admiral Syring. In November 2014, the Missile Defense Agency (MDA) 
implemented a highly accelerated life test (HALT) and highly 
accelerated stress screen (HASS) policy for all MDA programs. The 
policy applies to qualification of all new development efforts and to 
redesign efforts that require a delta qualification for an existing 
product baseline.
    MDA will initiate HALT testing in the GMD program in FY15, using 
FY15 funds. GMD plans to spend $5.9 million (M) for Configuration 2 
(C2) Boost Vehicle Electronics Reliability Demonstration testing in 
FY16, which includes the purchase of hardware and test planning 
activities. After the reliability demonstration, MDA can reuse the C2 
components for HALT activities in FY17.
    In addition, as part of the Stockpile Reliability Program, MDA is 
pulling a Capability Enhancement-II (CE-II)/Configuration-I GBI from 
the fleet in FY15. GMD plans to spend $3M in FY15 and $11.7M in FY16 to 
support this effort, which includes reverse flow testing, reliability 
demonstration and HALT activities on the vehicle's electronic 
components. The table below provides the funds allocation breakout (by 
year and program element) for MDA's efforts to incorporate HALT/HASS 
testing.
    Also, HALT is included as a requirement in the statement of work 
for the GMD RKV, the Long Range Discrimination Radar, and the AN/TPY-2 
radar AEU T1 Transformer contract request for proposal packages. HALT 
will be assessed for appropriateness as part of their contract 
negotiations.
    Mr. Coffman. Has MDA considered the potential benefits of 
implementing HALT and/or HASS on possible future MDA programs, for 
example, the Space-based Kill Assessment project or the THAAD Follow-on 
Program?
    Admiral Syring. Yes, the Missile Defense Agency (MDA) considered 
the potential benefits of implementing the highly accelerated life test 
and highly accelerated stress screen (HALT/HASS) on possible future MDA 
programs. MDA Policy Memorandum #77, (November 12, 2014), requires 
evaluation of HALT/HASS for new development and redesign efforts. For 
potential new programs such as a Terminal High Altitude Area Defense 
(THAAD) follow-on effort, a cost/benefit effort will be performed for 
the implementation of HALT. It will be assessed for appropriateness as 
part of contract negotiations. The Space-based Kill Assessment (SKA) 
project started six months before MDA's HALT/HASS policy was 
established, so contractual documentation did not specifically include 
HALT/HASS. However, vigorous screening and testing similar to the 
objectives of HALT/HASS were conducted on SKA as part of the space 
flight qualification requirements. SKA is hosted on a commercial 
spacecraft and was qualified against European Space Agency and National 
Aeronautics and Space Administration stress and parts screening 
standards.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. What is the reliability of the GBIs now? And 
projected for 2020 and 2025?
    Admiral Syring. [The information is classified and retained in the 
committee files.]
    Mr. Garamendi. How confident are you in the reliability of the CE-
I? And in the CE-II?
    Admiral Syring. [The information is classified and retained in the 
committee files.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
